6/19/2020

Open an Account
Careers

Visa® Platinum Rewards Credit Card from CommonWealth One FCU | CommonWealth One Federal Credit Union

Apply for a Loan

Find an ATM or Branch

Contact Us



Online Banking Login

Routing Number: 256078365

CONNECT

BORROW

MANAGE & SAVE

GROW & LEARN

COVID-19 Update: Click here for information regarding our hours of operation, relief programs or to schedule an appointment.

VISA® PLATINUM REWARDS CREDIT CARD
FROM COMMONWEALTH ONE FCU
OPEN AN ACCOUNT
APPLY FOR A LOAN
Visa Credit Cards

Visa® Platinum
Rewards Credit Card
Enjoy the convenience of using your Visa Platinum Rewards Credit Card everywhere with peace of mind
provided by Visa’s Zero Liability Policy1. Apply for a CommonWealth One Visa Platinum Rewards credit
card today and get a lower interest rate while earning rewards.

View Visa Credit Card
Rates

Variable rates as low as 8.99% APR* on purchases and cash advances
Earn 1 CURewards point for every dollar on all purchases
Reward points may be redeemed for cash, travel or merchandise or gift cards
No annual fee, cash advance or balance transfer fees
EMV chip enabled for additional layer of protection against fraud

Credit Card Pay O
Calculator
How Much Debt Do You
Owe Calculator
Veri ed By Visa®
CardValet and Visa Alerts
Can Help You Keep Your
Information Secure.

James Madison University custom design available

Convenience Services
Transfer balances to your current purchase rate with no fees in Online Banking or call (866) 8205871
Pay your credit card bill using your CommonWealth One or other bank account
Redeem your points at CURewards.com

Home Equity Loans
Mortgage Loans
Personal Loans

Sign up for e-statements

Global Assistance Services
Cardholder Inquiry Service
Emergency Card Replacement/Emergency Cash Disbursement
Lost/Stolen Card Reporting

Other Loans
Loan Rates
Loan Calculators

Travel Bene ts
Auto Rental Collision Damage Waiver2
CLEAR Expedited Airport Security Line Service2

Visa Business Credit
Cards

Emergency Evacuation and Transportation Coverage2
Emergency Medical/Dental Bene t2
Hotel Theft Protection2
Lost Luggage Reimbursement2

Auto Loan Rates
Credit Card Rates

Roadside Dispatch®
Travel Accident Insurance up to $50,0002
Travel and Emergency Assistance Services2
Trip Cancellation/Trip Interruption2
Trip Delay Reimbursement2
Disclosures

*APR = Annual Percentage Rate. All credit union rates and terms are based upon the evaluation of applicant(s) credit and will vary with

the market based on the Prime Rate.
1Visa’s

Zero Liability Policy covers U.S.-issued cards and does not apply to certain commercial card transactions or any transactions not

processed by Visa. You must notify your financial institution immediately of any unauthorized use. For specific restrictions, limitations and
other details, please contact us.
2Certain

terms, conditions, and exclusions apply. In order for coverage to apply you must use your covered Visa card to secure

transactions. Please refer to your Guide to Benefits for further details.
https://www.cofcu.org/borrow/visa-credit-cards/visa-platinum-rewards

1/2

6/19/2020

Visa® Platinum Rewards Credit Card from CommonWealth One FCU | CommonWealth One Federal Credit Union

View Visa Platinum Rewards Credit Card Agreement & Disclosure
Visa Rates, Fees, and Cost Information
Visa Signature Guide to Benefits
Visa Platinum Rewards and Platinum Guide to Benefits
Visa Business Platinum Rewards Guide to Benefits

Connect

Online Banking
Bill Pay
Mobile Apps
Mobile MyDeposit
PopMoney
E-Statements
Money Tools
Text Banking and Mobile Web Banking

Borrow

Loan Perks
New and Used Auto Loans
Visa Credit Cards
Home Equity Loans
Mortgage Loans
Personal Loans
Student Loans
Other Loans

Manage & Save

Checking Accounts
Savings Accounts
Money Management Accounts
Share Certi cates
Investment Services
Insurance Programs
Business Services

Grow & Learn

About CommonWealth One
Membership
College Student Services
Youth Programs
Scholarships
Financial and Education Resources
Contact Us
Find a Branch or ATM
Careers

© 2020, CommonWealth One Federal Credit Union. All Rights Reserved.
Privacy Policy | Disclosures | Website Accessibility

https://www.cofcu.org/borrow/visa-credit-cards/visa-platinum-rewards

2/2

